         estimony

                     STATEMENT OF
                  ROBERT J. LIEBERMAN
               DEPUTY INSPECTOR GENERAL
                DEPARTMENT OF DEFENSE
                      BEFORE THE
       SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
              FINANCIAL MANAGEMENT AND
            INTERGOVERNMENTAL RELATIONS
       HOUSE COMMITTEE ON GOVERNMENT REFORM
                           ON
           DEFENSE FINANCIAL MANAGEMENT



Report No. D-2001-120           DELIVERED: May 8, 2001



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Committee:



I appreciate the opportunity to be here today to discuss the

significant challenges facing the Department of Defense (DoD) in

financial management and the progress made in the year since your

last hearing on these matters.



Financial Reporting for FY 2000

For FY 2000, the DoD Components’ financial statements reported

total assets of $616 billion, total liabilities of $1.0 trillion,

total net costs of operations of $347 billion, and total

budgetary resources of $656 billion.   The extensive DoD efforts

to compile and audit the FY 2000 financial statements, for the

Department as a whole and for the 10 subsidiary reporting

entities like the Army, Navy and Air Force General Funds, could

not overcome the impediments caused by poor systems and

unreliable documentation of transactions and assets.   We were

able to issue a clean audit opinion for the Military Retirement

Fund, but disclaimers were necessary for all other major funds,

including the DoD-wide consolidated statements.   Some examples of

the problems in these year-end statements follow.



Department-level accounting adjustment entries used to compile

the financial statements were $4.4 trillion, with $1.1 trillion
                                                                    2


of those unsupported by reliable explanatory information and

audit trails.   This is an improvement from FY 1999, when $7.6

trillion of adjustments were made with $2.3 trillion unsupported,

but remains a good indication of the need for wholesale changes

to the financial data reporting systems.



Outpatient medical care services data for the year-end statements

were materially flawed.   These data represent $86 billion of the

reported $192.4 billion of military retirement health benefits

liability.   Further, questionable demographic data provided to

the DoD actuary caused us to have additional concerns about the

accuracy of the total liability estimate.   As a result of recent

legislation that expands the medical benefits for military

retirees, this liability is expected to more than double by 2003

and the importance of recognizing this cost exposure has greatly

increased.



The estimate of $63.2 billion for environmental liabilities could

not be verified.   The unsupported increases and decreases in the

environmental liability estimate from year to year (for FY 1999

it was $79.7 billion) underscore the unreliability of the

cumulative year-end reports.



We were unable to verify the $112.5 billion reported as the value

of general property, plant, and equipment on the balance sheet.
                                                                   3


DoD lacks supporting documentation for the reported value of many

of its 800,000 individual items of real property, mostly

buildings.



Accurate reporting of inventory and property remains a continuing

challenge for each of the Military Departments and Defense

Logistics Agency because of problems in logistics and other

feeder systems.   For example, the Defense Logistics Agency supply

inventory value of $7.2 billion was unreliable because of pricing

data problems, and the reported fuel inventory value of

$3.2 billion was unreliable because of untimely completion and

reconciliation of inventories, as well as untimely posting of

transactions.



During the past year, the DoD made some progress in addressing

major impediments to favorable audit opinions, but the pace of

improvement is slow.   The Department has many complex ongoing

corrective actions under way to improve the accuracy of data and

address every one of the issues discussed above, and we look

forward to the new ideas of the incoming Comptroller leadership

on what more can be done.   We are participating in almost every

one of the current improvement efforts and the DoD internal audit

community has an excellent working relationship with the

Department on these matters.
                                                                     4


Nevertheless, the level of frustration is high.   Although the DoD

has put a full decade of effort into improving its financial

reporting, it seems that everyone involved-—the Congress, the

Office of Management and Budget, the audit community, and DoD

managers—-have been unable to determine or clearly articulate

exactly how much progress has been made.    In my view, this is at

least partially caused by the emphasis on overall audit opinions

for the year-end statements, as opposed to focus on the status of

individual system modernization projects.



Financial and Feeder Systems Compliance Process

Throughout the 1990’s and again in 2000, the DoD attempted to

compile year-end financial statements, despite the fact that it

lacks systems capable of producing auditable results.   Using

convoluted, makeshift processes for transferring data from non-

financial feeder systems, and making several trillion dollars’

worth of accounting adjustments to transfer data into prescribed

formats each year, the DoD has expended tremendous time and

effort in futile attempts to compile auditable year-end financial

statements.



The DoD also has been working to identify and evaluate all

finance, accounting, and feeder systems against Federal financial

management requirements and Federal accounting standards to

identify specific system deficiencies.   Although it would be
                                                                    5


unfair to characterize this vital systems improvement effort as

futile, progress has been slow.   Because of the successful

results of DoD Y2K initiatives, two years ago we recommended that

DoD apply the same general management approach to bringing its

systems into compliance with Federal financial management systems

requirements.   The Under Secretary of Defense (Comptroller)

formally put into place the Financial and Feeder Systems

Compliance Process in January 2001 to oversee and monitor the DoD

Components’ efforts to develop and modify critical systems.    We

believe this initiative is important and offers the best hope for

more effective management of this crucial activity.   We realize

that the incoming financial managers may wish to alter various

details, but we hope that the basic approach will be followed.



If DoD is able to achieve success in the Financial and Feeder

Systems Compliance Process, more useful financial data will start

to flow to Defense managers as each system achieves compliance.

These improvements can and should occur years prior to the

Department achieving clean audit opinions.   I believe this is the

correct course to follow because it properly places achieving

useful financial information ahead of achieving clean audit

opinions.
                                                                     6


Financial Management Improvement Plan

The DoD Financial Management Improvement Plan offers a

potentially excellent vehicle for displaying the relevant

performance goals and progress against those goals.   Each

iteration of the Plan has been more informative, but it remains a

one-time status report rather than a management tool that is

actually used for management oversight.   In addition, there are

problems with its accuracy.



We reported in March that the latest Plan still did not contain a

complete inventory of financial management systems.   DoD needs to

first map the flow of data from transaction origination point to

presentation on the financial statements to ensure identification

of all systems involved with processing financial data.    The new

DoD Financial and Feeder Systems Compliance Process requires that

this mapping be done.



This year, DoD reported in the Plan that 19 of the 167 systems

were compliant with Federal Financial Management Systems

requirements.   We found, however, that at least 12 of the systems

either were not compliant or the reported compliance status was

based on questionable support.



According to the Plan, it will cost about $3.7 billion to make

the critical reporting systems compliant with standards by 2003.
                                                                     7


However, we noted that many systems lacked any cost estimate for

corrective action, there is no process to validate the cost

estimates, and it is uncertain that all systems have been

identified.    Therefore the actual total cost could be

considerably higher.



We also doubt that the Department can successfully manage the

retirements, replacements, and upgrades for 167 systems by 2003

as shown in the Plan.    We believe that 2003 is an overly

optimistic forecast.    Meeting information technology system

development schedules is frequently a problem in both the public

and private sectors; the DoD is no exception.    In any event,

success or failure in the systems compliance effort will

determine whether DoD ever achieves accurate financial reporting,

both at year-end and during the year whenever managers need

information.



Conclusion

The DoD continues to face a wide array of financial management

challenges.    I have concentrated on financial reporting today

because most of our audits have addressed that aspect.    However,

the Department also has compelling challenges in achieving better

integration of financial management and other management

functions and in improving finance operations.
                                                                   8


We look forward to working with the new Administration on the

Department’s financial management challenges.   We very much

appreciate the Subcommittee’s interest in these matters as well.



A list of our financial audit reports from FY 2001 to date is

attached.
                 Examples of FY 2001 Inspector General, DoD
                       Reports on Financial Management


2001-110   Defense Health Program Funds Administered as Part of the TRICARE
           Program dated April 30, 2001

2001-109   DoD Payroll Withholding Data for FY 2000 dated April 27, 2001

2001-108   Recognition of Revenues and Expenses in the Defense Business
           Management System dated April 27, 2001

2001-99    Use of Contract Authority for Distribution Depots by the Defense
           Logistics Agency dated April 16, 2001

2001-97    Preparing Financial Reports for Marine Corps Appropriations dated
           April 10, 2001

2001-85    The 2000 DoD Financial Management Improvement Plan dated March 19,
           2001

2001-81    Financial Reporting at the Washington Headquarters Service dated
           March 15, 2001

2001-79    Inventory Valuation at the Defense Supply Center Richmond dated
           March 14, 2001

2001-78    Inventory Valuation at the Defense Supply Center Columbus dated
           March 14, 2001

2001-71    Navy Financial Reporting of Government-Owned Materials Held by
           Commercial Shipyard Contractors dated March 2, 2001

2001-70    Internal Controls and Compliance with Laws and Regulations for the
           DoD Agency-Wide Financial Statements for FY 2000 dated
           February 28, 2001

2001-68    Inspector General, DoD, Oversight of the Audit of the FY 2000
           Military Retirement Fund Financial Statements dated February 28,
           2000

2001-67    Inspector General, DoD, Oversight of the Army Audit Agency Audit
           of the FY 2000 U.S. Army Corps of Engineers, Civil Works Program,
           Financial Statements dated February 28, 2001

2001-64    Inspector General, DoD, Oversight of the Army Audit Agency Audit
           of the Fiscal Year 2000 Army General Fund Financial Statements
           dated February 28, 2001

2001-63    Inspector General, DoD, Oversight of the Army Audit Agency Audit
           of the FY 2000 Army Working Capital Fund Financial Statements
           dated February 28, 2001
2001-62     Inspector General, DoD, Oversight of the Air Force Audit Agency
            Audit of the FY 2000 Air Force Working Capital Fund Financial
            Statements dated February 28, 2001

2001-60     Internal Controls and Compliance with Laws and Regulations
            for the FY 2000 Financial Statements for Other Defense
            Organizations – General Funds dated February 28, 2001

2001-58     Inspector General, DoD, Oversight of the Air Force Audit Agency
            Audit of the FY 2000 Air Force General Fund Financial Statements
            dated February 21, 2001

2001-57     Inspector General, DoD, Oversight of the Naval Audit of the
            FY 2000 Navy Working Capital Fund Financial Statements dated
            February 21, 2001

2001-56     Inspector General, DoD, Oversight of the Naval Audit Service
            Audit of the FY 2000 Department of the Navy General Fund
            Financial Statements dated February 21, 2001

2001-49     Abnormal General Ledger Account Balances for Other Defense
            Organizations Reported by DFAS Cleveland dated February 13, 2001

2001-48     Financial Reporting for Other Defense Organizations at the Defense
            Agency Financial Services Accounting Office dated February 9, 2001

2001-42     Accounting and Disclosing Intragovernmental Transactions on the
            DoD Agency-Wide Financial Statement dated January 31, 2001

2001-41     Journal Entries to Support Departmental Reporting for the
            Marine Corps dated January 31, 2001

2001-39     Financial Reporting of Department 97–Funded Property, Plant,
            and Equipment dated January 30, 2001

2001-30     Oversight of Defense Finance and Accounting Service Corporate
            Database Development dated December 28, 2000

2001-26     Accuracy of the Government-Owned Contractor-Occupied Real
            Property in the Military Departments’ Real Property Databases
            dated December 22, 2000

2001-14     Development and Implementation of a Joint Ammunition System
            dated December 6, 2000

2000-11     Prior Period Adjustment to Remove National Defense Property,
            Plant, and Equipment from the DoD Agency-Wide Balance Sheet
            dated November 16, 2000


The reports are available on the Web at www.dodig.osd.mil/audit/reports
